MECHANICAL MAINTENANCE:
Improved Practices Have Significantly Enhanced Acela Equipment
Performance and Could Benefit Performance of Equipment
Company-wide




                             Report No. OIG-E-2012-008 | May 21, 2012




                           DRAFT
NATIONAL RAILROAD
PASSENGER CORPORATION
                                   Office of Inspector General



Memorandum
To:          Donald Stadtler, Jr., Acting Vice President, Operations

From:        Calvin Evans, Assistant Inspector General, Inspections and Evaluations

Date:        May 21, 2012

Subject:     Mechanical Maintenance: Improved Practices Have Significantly Enhanced Acela
             Equipment Performance and Could Benefit Performance of Equipment
             Company-wide (Report No. OIG-E-2012-008)

This report presents the results of our review of the actions Amtrak has taken in
response to our 2005 evaluation of Amtrak’s mechanical maintenance program
(Mechanical Maintenance Operations, E-05-04, September 6, 2005). At that time, we
observed an equipment maintenance program (costing approximately $500
million/year) that consisted mainly of preventive maintenance inspections and services,
conducted at mostly time-based intervals, augmented by a high number of reactionary,
unscheduled repair actions. To improve equipment reliability and reduce maintenance
costs, we recommended that Amtrak adopt a more modern maintenance philosophy
based on reliability-centered maintenance (RCM), similar to that used by airlines and
other major railroads. Our report made 34 recommendations designed to move Amtrak
to a reliability-centered-maintenance philosophy and to improve the overall efficiency
and effectiveness of Amtrak’s mechanical maintenance program. Amtrak agreed with
our recommendations and developed plans to implement them.

This follow-up review was conducted to assess the progress that has been made in the
last 6 years and to identify opportunities for continued improvement. For a detailed
discussion of our scope and methodology, see Appendix I.
                                                                                                      2
                              Amtrak Office of Inspector General
                    Mechanical Maintenance: Improved Practices Have
         Significantly Enhanced Acela Equipment Performance and Could Benefit
                         Performance of Equipment Company-wide
                          Report No. OIG-E-2012-008, May 21, 2012

SUMMARY OF RESULTS

Since our previous report, Amtrak has made significant progress in improving its
mechanical maintenance processes and procedures. For example, the company adopted
condition-based maintenance1 as the corporate maintenance philosophy, analyzed the
content of preventive maintenance using RCM2 principles, and developed new
standardized preventive maintenance procedures for all of its major fleets of
equipment. Amtrak also developed a comprehensive quality management program that
redefined and revitalized quality management operations, developed and started
tracking a range of metrics to measure fleet performance, and established several
process-focused teams to improve maintenance processes and drive other operational
improvements. Furthermore, Amtrak also significantly improved the capabilities and
use of its computerized work management system, implemented a life-cycle preventive
maintenance program for its diesel locomotives, and improved the availability of repair
parts through electronic material requisitioning and the expansion of automated
material vending machines at the major shops. Overall, Amtrak’s progress is the result
of management’s commitment and the hard work of many individuals in the
Mechanical Department, supported by the work of many others throughout the
company.

However, improvements in equipment performance have been uneven. Acela, which
represents about 10 percent of Amtrak’s total fleet of equipment and was the first fleet
where RCM was implemented, has seen significant improvements in reliability and
availability. To illustrate, since Fiscal Year (FY) 2006,




1 Condition-based maintenance is maintenance that is performed only when there is objective evidence of
need. RCM is the methodology used to determine whether that objective evidence of need exists.
2 Reliability-Centered Maintenance (RCM) was first described in the 1978 Nolan and Heap report for

United Airlines—Reliability Centered Maintenance, and subsequently popularized by the late John
Moubray in his RCMII series, including RCMII Reliability-Centered Maintenance, Industrial Press, 1997.
Elements of Nolan and Heap’s work have been incorporated into federal railroad safety standards in 49
CFR Part 238 (Passenger Equipment Safety Standards), Appendix E—General Principles of Reliability-
Based Maintenance Programs.
                                                                                                            3
                               Amtrak Office of Inspector General
                     Mechanical Maintenance: Improved Practices Have
          Significantly Enhanced Acela Equipment Performance and Could Benefit
                          Performance of Equipment Company-wide
                           Report No. OIG-E-2012-008, May 21, 2012

    Acela terminations3 have decreased by 29 percent,
    Acela annulments4 have decreased by 50 percent,
    Acela reliability5 has improved by 11 percent, and
    Acela trainset6 availability has improved by 14 percent.7

These improved maintenance results allowed Amtrak to deploy two additional Acela
trainsets, generating over 50 million dollars in additional revenue since the trains were
put into service.

In contrast, similar metrics have remained the same or declined slightly for the
remainder of Amtrak’s equipment. Compared with Acela’s trainset availability
improvement of 14 percent, the availability of the rest of Amtrak’s equipment has
stayed roughly the same; and compared with Acela’s reliability improvement of 11
percent, the rest of Amtrak’s equipment is, on average, less reliable than before.
To determine why the performance of the Acela trainsets has improved so much more
than the conventional (non-high-speed) fleets, we examined the differences in the
maintenance practices employed. Based on our review, Acela’s greater improvements in
reliability and availability can be attributed to four major factors:

 RCM principles have been more fully implemented with Acela, including the creation of
  a standing committee fully dedicated to equipment reliability, access to more and
  better data, and the consistent use of a structured approach to analyzing failures.
 Amtrak established strong management accountability for improving Acela equipment
  performance, including routine executive-level scrutiny of Acela equipment
  performance and clear accountability for results.
 More management and technical support is devoted to Acela maintenance, including
  three times as many managers per agreement-covered (union) employee and six
  times as much dedicated engineering and technical support per piece of equipment,
  including on-site, 24/7 support at each facility.

3 A termination occurs when a train begins its trip but does not reach its final destination. When a train is
terminated, passengers are usually transferred to another train or bused to their final destinations.
4 An annulment occurs when a train is canceled before it leaves its station of origin.

5 As measured by mean distance between trainset failures.

6 An Acela trainset consists of two power cars, four business-class coaches, one first-class coach, and a

café car.
7 Based on planned Acela service availability.
                                                                                                        4
                              Amtrak Office of Inspector General
                    Mechanical Maintenance: Improved Practices Have
         Significantly Enhanced Acela Equipment Performance and Could Benefit
                         Performance of Equipment Company-wide
                          Report No. OIG-E-2012-008, May 21, 2012

 The workforce maintaining the Acela equipment is, on average, more qualified, better trained,
  and better incentivized, including 12 weeks of structured Acela-specific equipment
  training and a financial incentive program tied to equipment performance.

Improving the reliability and availability of the conventional fleets to a comparable
level as that achieved with the Acela trainsets would result in significant financial
benefits to Amtrak and significant passenger experience benefits to its customers. As
with Acela, better reliability and availability would lead to improved on-time
performance (OTP). Not only would this directly support Amtrak’s goal to improve
customer satisfaction, but improved OTP would also have an impact on increased
ridership and ticket revenue.

In addition, other financial benefits of improving maintenance practices are clearly
compelling. If the availability of the conventional fleets were improved to the level of
the Acela equipment, Amtrak could provide the same level of service with over 120
fewer conventional cars and 45 fewer conventional locomotives than presently required.
Based on the estimates in Amtrak’s Fleet Strategy,8 this would save Amtrak almost $600
million in fleet procurement costs over the next 15 years.9

Therefore, we are recommending that the Vice President for Operations develop goals
for improving the performance of Amtrak’s conventional fleet that support Amtrak’s
strategic plan; provide direction, support, and resources to achieve these goals; and
hold the Chief Mechanical Officer (CMO) accountable for meeting the goals.
Furthermore, we are recommending that, in addressing those goals, the VP for
Operations and the CMO establish and implement an agreed-upon plan for improving
the performance of the conventional fleets that includes adopting the Acela
maintenance practices, as appropriate.

Finally, more can be done to implement our original recommendations, such as tracking
all critical components by serial number, optimizing the content and frequency of the
heavy overhaul programs, maintaining accurate cost data, and verifying that preventive
maintenance is being conducted correctly. Therefore, we are also recommending that, as


8 Amtrak Fleet Strategy (Version 2), February 2011.
9 These savings do not account for any additional costs potentially required to achieve this improved
level of equipment availability.
                                                                                         5
                            Amtrak Office of Inspector General
                  Mechanical Maintenance: Improved Practices Have
       Significantly Enhanced Acela Equipment Performance and Could Benefit
                       Performance of Equipment Company-wide
                        Report No. OIG-E-2012-008, May 21, 2012

part of the plan mentioned above, the CMO develop a plan to fully address the
recommendations from our previous report that have not yet been completed.
In commenting on a draft of this report, management agreed with and has committed to
taking actions responsive to our recommendations.



AMTRAK HAS MADE SIGNIFICANT PROGRESS IN
IMPROVING MAINTENANCE PRACTICES, ALTHOUGH WORK
REMAINS IN SOME IMPORTANT AREAS

Since our previous report, Amtrak has made significant progress in improving its
mechanical maintenance processes and procedures. For example, the company has

   officially adopted condition-based maintenance as the corporate maintenance
   philosophy,
   hired an experienced senior manager to coordinate the RCM program,
   analyzed the content of preventive maintenance using RCM principles and
   developed new standardized preventive maintenance procedures for all major fleets
   of equipment,
   significantly changed the way maintenance is performed on the Acela trainsets,
   established several process-focused teams to improve maintenance processes and
   drive other operational improvements,
   implemented a life-cycle preventive maintenance program for diesel locomotives,
   consolidated diesel locomotive maintenance to gain efficiencies,
   developed a comprehensive quality management program that redefined and
   revitalized quality management operations,
   developed and started tracking a range of metrics to measure fleet performance,
   significantly improved the capabilities and use of the computerized work
   management system, and
   significantly improved the availability of repair parts through electronic material
   requisitioning and the expansion of automated material vending machines at the
   major shops.
                                                                                                  6
                              Amtrak Office of Inspector General
                    Mechanical Maintenance: Improved Practices Have
         Significantly Enhanced Acela Equipment Performance and Could Benefit
                         Performance of Equipment Company-wide
                          Report No. OIG-E-2012-008, May 21, 2012



This has been the result of a lot of hard work by many individuals in the Mechanical
Department, supported by the work of many others. However, there is still work to do
in some important areas, such as

 tracking all critical components by serial number,
 optimizing the content and frequency of the heavy overhaul programs,
 maintaining accurate cost data, and
 verifying that preventive maintenance is being performed correctly.


Appendix II includes a more detailed discussion of the current status of each of our
previous recommendations.



EQUIPMENT RELIABILITY AND AVAILABILITY HAVE
IMPROVED DRAMATICALLY FOR ACELA, BUT NOT FOR
CONVENTIONAL FLEETS

Based on the progress that Amtrak has made, we expected to see considerable
improvement in the overall reliability and availability of Amtrak’s equipment fleets. Yet
this has only been the case with the Acela fleet, which was the first fleet where RCM
was implemented. Since FY 2006,10

     Acela terminations have decreased by 29 percent, and
     Acela annulments have decreased by 50 percent.


See Figure 1.




10FY 2006 was chosen as the baseline for comparison because it was the transition year when Amtrak
took over maintenance of the Acela trainsets from the manufacturer. Amtrak started implementing RCM
on the Acela trainsets in FY 2007.
                                                                                                    7
                               Amtrak Office of Inspector General
                     Mechanical Maintenance: Improved Practices Have
          Significantly Enhanced Acela Equipment Performance and Could Benefit
                          Performance of Equipment Company-wide
                           Report No. OIG-E-2012-008, May 21, 2012

                Figure 1. Acela Fleet Performance, FY 2006–2011

              70
              60
              50
              40
              30
              20
              10
               0
                      2006       2007        2008       2009       2010        2011

                                        Annulments       Terminations


             Source: OIG based on Amtrak data



Additionally,

     Acela reliability has improved by 11 percent,11 and
     Acela trainset availability has improved by 14 percent.12


Yet we have not seen the same level of improvement in the reliability and availability of
the conventional (non-high-speed) fleets of equipment. Compared with Acela’s
availability improvement of 14 percent, the availability of the rest of Amtrak’s
equipment has stayed about the same or decreased. Since FY 2006,

     car availability has increased by just 2 percent,
     electric locomotive availability has increased by less than 1 percent, and
     diesel locomotive availability has decreased by 3 percent.


See Figure 2.

11Reliability had improved by 30 percent between FY 2006 and FY 2009, but has since fallen.
12Implementing RCM on the Acela fleet allowed Amtrak to change to a continuous-maintenance
approach, in which quarterly preventive maintenance tasks are spread throughout the quarter. This
helped contribute to the improvement in availability.
                                                                                                            8
                               Amtrak Office of Inspector General
                     Mechanical Maintenance: Improved Practices Have
          Significantly Enhanced Acela Equipment Performance and Could Benefit
                          Performance of Equipment Company-wide
                           Report No. OIG-E-2012-008, May 21, 2012

        Figure 2. Conventional Fleet Availability, FY 2006–2011


                     Percentage
                90

                85

                80

                75

                70
                                           2006       2007      2008         2009        2010       2011
                                                  Cars       Loco - Diesel       Loco - Electric


          Source: OIG based on Amtrak data

Compared with Acela’s reliability improvement of 11 percent, since 2008,13 the rest of
Amtrak’s equipment, on average, was reported as less reliable than before.

See Figure 3.

            Figure 3. Conventional Fleet Reliability, FY 2008–2011

                                         30000
                Between Mech Incidents




                                         25000

                                         20000
                     Mean Miles




                                         15000

                                         10000

                                          5000

                                             0
                                                     2008          2009             2010             2011
                                                     Cars       Loco - Diesel        Loco - Electric


              Source: OIG based on Amtrak data



13Amtrak changed the way it measures reliability after FY 2007 for the conventional fleets; therefore,
comparisons against current reliability cannot be made to data before FY 2008.
                                                                                               9
                             Amtrak Office of Inspector General
                   Mechanical Maintenance: Improved Practices Have
        Significantly Enhanced Acela Equipment Performance and Could Benefit
                        Performance of Equipment Company-wide
                         Report No. OIG-E-2012-008, May 21, 2012

However, according to Mechanical Department officials, they changed the way they
recorded mechanical incidents in March 2010, from a manual method to an automated
method that is fully integrated with the on-time-performance database. The new
method captures more incidents than were being captured manually, which could
explain the drop in reliability observed in 2011. Therefore, we examined reliability of
the conventional fleet up to the time that the method was changed. From October 2007
through February 2010, the overall reliability of the conventional fleet dropped about 1
percent. Since then, reliability has continued to drop slightly, although it is difficult to
make conclusions from only 18 months of data. Regardless of the exact number, it is
clear that the reliability of the conventional fleet has not improved.



SIGNIFICANT BENEFITS WILL LIKELY ACCRUE FROM
IMPROVING THE AVAILABILITY AND RELIABILITY OF
AMTRAK’S CONVENTIONAL EQUIPMENT

The improvements in Acela equipment performance over the past 6 years have now
made that equipment stand clearly above the rest of Amtrak’s equipment in availability
and reliability. These improved maintenance results allowed Amtrak to deploy two
additional Acela trainsets, generating millions of dollars in additional revenue each
year. Improving the conventional fleets to a comparable level would likely result in
significant additional benefits to Amtrak—both financial and in terms of noticeable
improvements in passenger experience.


Availability

Availability can be defined as “present and ready for service.” Amtrak tracks the
availability of its conventional equipment by measuring the actual amount of time its
cars and locomotives are available for service throughout the month, compared against
the total number of hours in the month. Availability is then reported on a monthly basis
for the different types of conventional cars and locomotives.

Amtrak does not track and report on the availability of its Acela equipment in a
comparable fashion. For Acela, work is planned so that the required number of trainsets
                                                                                                         10
                               Amtrak Office of Inspector General
                     Mechanical Maintenance: Improved Practices Have
          Significantly Enhanced Acela Equipment Performance and Could Benefit
                          Performance of Equipment Company-wide
                           Report No. OIG-E-2012-008, May 21, 2012

is available for revenue service each morning (16 on a normal weekday14). Extra effort is
not expended solely to have more trainsets available than are necessary to meet service
requirements.

An Acela trainset is only available for service if all six of its cars and both of its power
cars are available. Conversely, if one of the eight pieces of equipment is not available,
the entire trainset is unavailable. Therefore, to compare the availability of the Acela
equipment with the conventional equipment requires converting the trainset
availability into an equivalent availability by individual piece of equipment. Based on
probabilities, for a trainset to be available for service, on average, 80 percent of the time,
each piece of equipment in the trainset must be available for service, on average, better
than 97 percent of the time.15 Using this approach, the availability of the different fleets
of equipment in FY 2011 is shown below:

     Average Acela car and locomotive availability:16                         97 percent
     Average conventional car availability:                                   88 percent
     Average conventional diesel locomotive availability:                     86 percent
     Average conventional electric locomotive availability:                   76 percent


Reliability

Reliability can be defined as “performing the intended function without failure.”
Measuring reliability discloses how often the equipment performs as desired. Amtrak
tracks the reliability of its conventional equipment using the metric of mean distance
between mechanical incidents, which is reported on a monthly basis for different types
of cars and locomotives.

Amtrak used to report mean distance between failures for the Acela trainsets until
sometime in FY 2010, when this metric was discontinued.17 Amtrak still tracks certain



14 Equals 80% of the total number of Acela trainsets.
15 Trainset availability is equal to the product of the availability of the eight individual pieces of
equipment (97.2% x 97.2% x 97.2% x 97.2% x 97.2% x 97.2% x 97.2% x 97.2% = 80%).
16 Based on 80 percent planned trainset availability in FY 2011.
                                                                                                    11
                               Amtrak Office of Inspector General
                     Mechanical Maintenance: Improved Practices Have
          Significantly Enhanced Acela Equipment Performance and Could Benefit
                          Performance of Equipment Company-wide
                           Report No. OIG-E-2012-008, May 21, 2012

Acela reliability indicators (for example, annulments, terminations, and delay minutes),
but always at the trainset level rather than separately for Acela cars and locomotives.
Therefore, in attempting to make an accurate comparison of Acela reliability with
Amtrak’s conventional equipment, we used the Federal Railroad Administration (FRA)
published metric for equipment reliability that was created pursuant to Section 207 of
the Passenger Rail Investment and Improvement Act of 2008 (PRIIA).18 This metric
measures service interruptions per 10,000 train miles due to equipment-related
problems. An annulment, a termination, or a train delay of greater than 30 minutes
because of mechanical reasons is considered a service interruption.

The FRA metric is published by route rather than fleet of equipment. However, since all
Amtrak services, except Acela, use conventional equipment, the published metrics can
be used to compare the performance of the Acela equipment with that of the
conventional equipment as a whole. In addition to comparing Acela to overall
conventional equipment performance, we have included below the FRA-published
metric for the Amtrak Regional service, which is the conventional service that best
compares with the Acela service since it operates over largely the same electrified
territory in the northeastern United States.

For the 12 months ending June 30, 2011, service interruptions per 10,000 train miles due
to equipment-related problems were

     Amtrak Regional trains                    0.91
     Total, all conventional trains            0.73
     Acela trains                              0.45

Source: FRA website


Stated another way, for this 12-month period, the trains using conventional equipment
experienced service interruptions due to equipment-related problems more than one
and a half times as often as the Acela trains, and the Amtrak Regional trains

17 Amtrak tracked and routinely reported on mean distance between trainset failures at the Acela
Executive Oversight Committee (EOC) between 2004 and the beginning of 2010. At some point after the
Chief Operating Officer stopped chairing the Acela EOC, this metric was no longer routinely reported,
although delay incidents are still tracked and reported separately.
18 http://www.fra.dot.gov/rpd/passenger/2165.shtml
                                                                                                          12
                               Amtrak Office of Inspector General
                     Mechanical Maintenance: Improved Practices Have
          Significantly Enhanced Acela Equipment Performance and Could Benefit
                          Performance of Equipment Company-wide
                           Report No. OIG-E-2012-008, May 21, 2012

experienced service interruptions due to equipment-related failures about twice as often
as the Acela trains. Both of these ratios demonstrate the significantly greater reliability
of the Acela equipment.


Benefits to Amtrak

Improving the reliability of the conventional fleets to a level comparable to that of the
Acela trainsets would result in significant benefits to Amtrak and its customers.
Improvements in reliability will lead to better on-time performance (OTP) and greater
customer satisfaction. Not only would this directly support Amtrak’s goals in these
specific areas, but Amtrak’s market research has shown that improved OTP also has an
impact on increased ridership demand and expected ticket revenue. For example,
Amtrak previously estimated that a sustained 1-percent improvement in OTP for
Northeast Corridor Regional trains would generate about $1 million in additional ticket
revenue per year.19 Increased OTP will affect ridership and revenue differently for each
Amtrak route, but higher sustained OTP across the Amtrak system by improving the
reliability of all conventional equipment could generate millions of dollars in additional
revenue every year.

In addition, if the availability of the conventional fleets could be improved to the level
of the Acela equipment, Amtrak could provide the same level of service with over 120
fewer conventional cars and 45 fewer conventional locomotives than what is currently
required.20 Based on the estimates in Amtrak’s Fleet Strategy, this could save the
company almost $600 million21 in fleet procurement costs over the next 15 years.




19 Based on an Amtrak study done in late 2007. Revenue estimates are route-specific and are dependent
on trip time and base OTP.
20 This comparison is made to illustrate the magnitude of the benefits possible. It does not suggest that the

Acela level of availability is the optimum level, taking into consideration the differences in the fleets and
the costs that may be needed to achieve this level of performance.
21 Assumes no savings from reduced numbers of electric locomotives and single-level long-distance

sleeper trainsets since Amtrak has already contracted for new equipment of this type.
                                                                                      13
                             Amtrak Office of Inspector General
                   Mechanical Maintenance: Improved Practices Have
        Significantly Enhanced Acela Equipment Performance and Could Benefit
                        Performance of Equipment Company-wide
                         Report No. OIG-E-2012-008, May 21, 2012

RCM IMPLEMENTATION, MANAGEMENT ACCOUNTABILITY,
GREATER SUPPORT, AND WORKFORCE DIFFERENCES
ACCOUNT FOR ACELA’S GREATER IMPROVEMENTS IN
RELIABILITY AND AVAILABILITY

There are significant differences between the maintenance practices utilized for the
Acela trainsets and those used for the rest of Amtrak’s equipment. After analyzing these
differences, we attribute Acela’s greater improvements in reliability and availability to
four major factors: fuller implementation of RCM; greater accountability for Acela
equipment performance; considerably greater management and technical support
devoted to Acela maintenance; and a more qualified, better trained, and better
incentivized workforce maintaining the Acela equipment.


RCM Has Been More Fully Implemented with Acela
Reliability-centered maintenance is based on understanding equipment failures. It
requires continually capturing and analyzing significant amounts of data on equipment
performance and failures, and then taking appropriate maintenance actions based on
that analysis. The team maintaining the Acela equipment is significantly more
advanced in this area than the teams maintaining the conventional fleets. The Acela
team has access to more and better failure data, more consistently uses a structured
approach to analyzing the data, and has a standing committee that is focused solely on
monitoring equipment reliability and prioritizing activities to improve equipment
performance.

Access to More and Better Data. The Acela team has access to more and better failure
data. For example, the data currently entered into the Work Management System for
Acela work orders is consistently more detailed and specific than for work orders on
the conventional equipment. This is because the Acela team is more mature in its usage
of the data and has put more emphasis on the value of the specificity of the information
in diagnosing problems. In addition, the Acela team has worked aggressively to utilize
the information available from Acela’s on-board health monitoring systems. Through
the Maintenance Events Analysis Program initiative, the Acela team now receives
                                                                                                          14
                               Amtrak Office of Inspector General
                     Mechanical Maintenance: Improved Practices Have
          Significantly Enhanced Acela Equipment Performance and Could Benefit
                          Performance of Equipment Company-wide
                           Report No. OIG-E-2012-008, May 21, 2012

automated daily downloading of the equipment’s health data. By monitoring the health
of the equipment on a routine basis, many impending failures have been averted before
they affected service.

Although equipment health data are also available for some of the conventional
locomotives, Amtrak has only recently started routinely downloading the information
and is now working on presenting it in a way that will help facilitate sophisticated
analysis. Without detailed equipment failure and performance data, it is much more
difficult to conduct the analysis required to routinely anticipate or properly react to
equipment problems and failures.

Consistent Use of Structured Approach to Analyzing Failures. The Acela team has
made extensive use of root cause analysis in studying serious equipment failures. Root
cause analysis is a structured approach to identifying the factors that cause a failure and
the actions needed to prevent its recurrence. Teams using this approach have been
formed to study several Acela component failures, including Acela/HHP22 power
module failures, Acela side door failures, and Acela tilting mechanism problems. In
each case the team uncovered the root cause of the problem and recommended
solutions that have significantly increased the reliability of those components.

Teams have also used root cause analysis to successfully address problems with the
conventional fleets, most notably electric locomotive pantograph23 problems. However,
the use of this structured approach is standard practice for studying major Acela
failures; while the formal process is still used only sparingly in addressing conventional
equipment problems. The likelihood that a problem will resurface in the future is
significantly reduced when a formal, structured approach is used to study and address
the failure.

Standing Committee Focused on Equipment Reliability. In January 2008 the Amtrak
Chief Operating Officer formed an Acela Reliability Subcommittee24 to study and
improve the reliability of the Acela fleet. This subcommittee has met biweekly since
then, tracking key performance indicators for equipment reliability (annulments,

22 HHPs are Amtrak’s high-horsepower electric locomotives.
23 A pantograph is the part of the electric locomotive that comes in contact with the overhead electric
power cable.
24 This was formed as a subcommittee to the Acela Executive Oversight Committee.
                                                                                       15
                             Amtrak Office of Inspector General
                   Mechanical Maintenance: Improved Practices Have
        Significantly Enhanced Acela Equipment Performance and Could Benefit
                        Performance of Equipment Company-wide
                         Report No. OIG-E-2012-008, May 21, 2012

terminations, and delay minutes) and prioritizing activities to address the major causes
of Acela failures. The regular meetings of this subcommittee, with continued attendance
by the Chief Mechanical Officer, have kept a focus on activities designed to improve
reliability and have prioritized the use of limited resources to activities where the
greatest benefit could be gained.

Teams have also been formed for the major conventional fleets, but these teams have
not focused solely on reliability and have not all met with the frequency of the Acela
reliability subcommittee. These process-focused teams have worked to improve
maintenance operations; but without a dedicated focus on reliability, they have not had
the same level of impact on reliability as has the Acela Reliability Subcommittee. As
with most improvement initiatives, constantly measuring performance against goals
and taking aggressive actions designed to achieve those goals are critical to achieving
success.


Greater Accountability Exists for Acela Equipment Performance

The performance of the Acela equipment has held the particular interest of Amtrak’s
executive leadership since the first day the equipment was put into service in 2000.
Since that time, no other fleet of equipment at Amtrak has been put under the same
executive-level scrutiny as Acela, and no one individual has been held more
accountable for a fleet’s performance than the Acela Master Mechanic.

Executive-Level Scrutiny of Acela Equipment Performance. In 2004, when Amtrak was
starting to prepare to take over the maintenance of the Acela equipment from its
manufacturer, an Acela Executive Oversight Committee (EOC) was formed by the Chief
Operating Officer. This committee was scheduled to meet monthly and review issues
associated with the operation and maintenance of the Acela trainsets. As part of this
monthly meeting, equipment performance metrics were reviewed. The Acela Master
Mechanic and Chief Mechanical Officer were routinely questioned about equipment
failures and their plans to address reliability issues. The Acela EOC met regularly for
over 5 years with the Chief Operating Officer as the head of the committee. Every
month during this period the Acela Master Mechanic and Chief Mechanical Officer
were subject to questioning about the performance of the fleet.
                                                                                                       16
                              Amtrak Office of Inspector General
                    Mechanical Maintenance: Improved Practices Have
         Significantly Enhanced Acela Equipment Performance and Could Benefit
                         Performance of Equipment Company-wide
                          Report No. OIG-E-2012-008, May 21, 2012

No other Amtrak master mechanic has been subjected to this regular level of scrutiny
on the performance of a fleet of equipment. In fact, since Acela has been in service, no
other single fleet of equipment has been the subject of an executive-level oversight
committee or a regularly scheduled meeting with executive leadership. The executive-
level interest in Acela fleet performance clearly sent a message about the importance of
the reliability of the Acela equipment, which was, in turn, reflected in the actions and
priorities demonstrated by Mechanical Department leadership.

Interestingly, in early 2010, the high-speed rail team stopped reporting on the mean
distance between failures (MDBF) for the Acela fleet—one of the common metrics used
for measuring equipment reliability. Since that time, reliability, as measured by MDBF,
has decreased by 15 percent for the Acela equipment, after having improved by 30
percent while being subjected to monthly reporting and questioning at the Acela EOC.

Accountability of the Acela Master Mechanic. Amtrak’s Mechanical Department is
organized largely on a geographical basis. There are six master mechanics responsible
for equipment maintenance throughout the country. Five of the master mechanics are
accountable for maintenance activities within their geographic areas of responsibility.
The Acela Master Mechanic is the sole exception. Except for Acela, none of the major
fleets of Amtrak equipment are maintained solely within one master mechanic’s area of
responsibility,25 and therefore none of the other master mechanics are solely accountable
for the performance of any of the major fleets.26 In contrast, everyone who maintains the
Acela trainsets works for the Acela Master Mechanic, and works in a maintenance
facility under the control of the Acela Master Mechanic. With control comes
accountability. For Acela availability and reliability, it is clear that the Acela Master
Mechanic has ultimate accountability for performance.




25 There are some small fleets of equipment, such as the Talgo-built cars and the auto carriers, that are
maintained solely within one master mechanic’s boundaries.
26 Three of the master mechanics head process-focused teams on diesel locomotives, electric locomotives,

and cars, respectively. These master mechanics are tasked with improving the maintenance processes
associated with these fleets, but since they do not control all of the maintenance activities being
performed on their respective fleets, they do not have the same level of accountability for fleet
performance as does the Acela Master Mechanic.
                                                                                                   17
                                 Amtrak Office of Inspector General
                       Mechanical Maintenance: Improved Practices Have
            Significantly Enhanced Acela Equipment Performance and Could Benefit
                            Performance of Equipment Company-wide
                             Report No. OIG-E-2012-008, May 21, 2012



Greater Management and Technical Support is Devoted to Acela

The employees maintaining the Acela fleet currently have much greater and quicker
access to technical support, and the Acela Master Mechanic has more management
resources at his disposal to react to problems, analyze failures, and plan work, than do
the other master mechanics. This logically contributes to Acela’s better performance,
and any increase in management and technical support for the conventional fleets, if
properly employed, would also help improve the performance of those fleets.

The Acela fleet consists of 40 power cars (locomotives), 100 passenger coaches, and 20
café cars. The fleet is currently being maintained by 285 agreement-covered27 employees
and 47 management employees. This equates to almost two agreement-covered
employees per piece of equipment, and about six agreement-covered employees per
manager. In addition, the Acela fleet is supported by a dedicated group of 32 engineers
and technicians under the Deputy Chief Mechanical Officer for Engineering, Standards,
and Planning. This equates to one dedicated engineer or technician for every five pieces
of equipment. Included in this group of 32 employees are 19 service engineers who
provide on-site 24/7 technical support and trouble-shooting assistance at each of the
three Acela maintenance facilities (in Washington, D.C.; New York; and Boston).

The conventional fleet consists of approximately 350 locomotives and 1,400 cars of
widely differing types. Comparing the staff devoted to the conventional fleet with the
Acela fleet, Acela is maintained by about the same number of agreement-covered
employees per piece of equipment, but there are three times more managers per
agreement-covered employee for Acela and six times more dedicated engineering and
technical support per piece of equipment for Acela. In addition, although Rolling Stock
Engineering has some dedicated engineering and technical support at the conventional
field locations, it does not provide on-site, 24/7 support at each of the 11 major
conventional maintenance facilities—as is done at the Acela maintenance facilities.

Increasing the ratio of managers to agreement-covered employees and engineers and
technicians per piece of equipment will help improve the performance of the
conventional fleet. However, we have not performed a detailed study to determine


27   Agreement-covered employees are union employees working under a collective bargaining agreement.
                                                                                           18
                             Amtrak Office of Inspector General
                   Mechanical Maintenance: Improved Practices Have
        Significantly Enhanced Acela Equipment Performance and Could Benefit
                        Performance of Equipment Company-wide
                         Report No. OIG-E-2012-008, May 21, 2012

whether the Acela employee ratios would be the optimal ratios for the conventional
fleets. This optimal level of support would be best determined by a cost-benefit
analysis, taking into consideration the goals to be achieved.


The Acela Workforce is More Qualified, Better Trained, and Better
Incentivized

Compared with the agreement-covered employees maintaining the conventional fleets,
the Acela workforce is, on average, more qualified, better trained, and better
incentivized.

Qualifications. The Acela trainsets have always been maintained by Amtrak
agreement-covered employees, initially under the management of the manufacturer’s
maintenance contractor (NEC-MSC) and, since 2006, under the supervision of Amtrak
managers. From the outset, employees who wanted to work on Acela were screened
using instruments that measured elements of mechanical aptitude, depending on the
craft, as part of the initial selection process. The purpose of this was to ensure that those
selected would be more likely to complete the specialized Acela maintenance training
and succeed on the job. Not all applicants successfully completed this screening, and
those who did not were not selected.

By comparison, until about a year ago, no comparable screening was undertaken of
newly-hired mechanical employees maintaining conventional equipment. Therefore,
the vast majority of current employees working on the conventional equipment were
not subjected to similar screening and consequently have not demonstrated the same
level of mechanical aptitude. Although mechanical aptitude is but one element of what
makes a mechanic successful, expanding this testing to all newly hired Mechanical
Department employees rather than just those working on Acela is a positive step.

Training. All employees who will be assigned to maintain Acela trainsets are given a
total of 12 weeks of structured Acela-specific equipment training before they are
allowed to work on the trainsets without supervision. Every third week of this training
is hands-on, under close supervision, to apply the knowledge and principles learned in
the classroom. This training is in addition to the various other non-equipment-specific
courses normally administered to newly-hired mechanical employees.
                                                                                          19
                             Amtrak Office of Inspector General
                   Mechanical Maintenance: Improved Practices Have
        Significantly Enhanced Acela Equipment Performance and Could Benefit
                        Performance of Equipment Company-wide
                         Report No. OIG-E-2012-008, May 21, 2012



No comparable structured, equipment-specific training program exists for new
employees who maintain the conventional equipment. Although numerous
conventional equipment-specific courses are available and the Mechanical Department
has a team developing recommendations for a more structured program, there is
currently no mandatory, structured program requiring each new employee working on
the conventional fleets to take these courses before they start working on the
equipment.

Due to the in-depth training program, new employees assigned to maintain Acela are
much more knowledgeable and much better prepared to perform the tasks they are
assigned than are their conventional-equipment counterparts.

Incentives. In November 2007, Amtrak started a program that pays a monthly financial
incentive to eligible agreement-covered employees who work on the Acela equipment if
they meet certain availability, reliability, and overtime goals. Between November 2007
and September 2011, Amtrak paid out $862,500 in bonuses under this program—about
one quarter of the total bonuses possible during this period. It is difficult to quantify the
effect these financial incentives have on the motivation of the Acela employees and the
achievement of performance goals, but it is logical to assume at least some effect and
this program is therefore most likely a contributing factor to the greater reliability of the
Acela equipment.

No comparable financial incentive program is currently in place for workers who
maintain the conventional fleets. Amtrak is, however, contemplating a company-wide
incentive program and has included language about this program in the recently-signed
labor agreements with its unions. Yet the details have not been finalized and a firm
timeline for starting the program has not been set.


CONCLUSIONS
The results of implementing many of our 2005 recommendations to improve the
efficiency and effectiveness of Amtrak’s maintenance practices—especially with the
Acela fleet—have been significant, but have not come easily. Much hard work and extra
resources have been devoted to improving the performance of the Acela fleet. In many
                                                                                         20
                             Amtrak Office of Inspector General
                   Mechanical Maintenance: Improved Practices Have
        Significantly Enhanced Acela Equipment Performance and Could Benefit
                        Performance of Equipment Company-wide
                         Report No. OIG-E-2012-008, May 21, 2012

ways, the Acela fleet and those who maintain it have been treated differently from those
involved with the conventional fleets and the rest of the Mechanical Department
employees. Regardless of why this was done, the results have shown that, given the
proper tools and resources, Amtrak can maintain its equipment at a very high level of
performance. We believe that a comparable high level of performance can also be
achieved for the conventional fleets.

While all of the different Acela maintenance practices discussed in this report will
logically contribute to improved equipment performance, it is difficult to tell the
relative importance of each of the different practices in achieving better results. Because
of this, our recommendations leave some flexibility on how far to go in adopting them.
For example, an incentive program should logically help motivate employees to give
the extra effort to achieve improved results. However, the costs of such a company-
wide program, if not properly designed, could exceed its expected benefits.

Therefore, while specifics remain to be worked out, the actions that Amtrak has taken to
improve the performance of the Acela fleet have created a roadmap for Amtrak to
follow in achieving greater performance of its conventional fleets. With a well thought-
out plan and the proper resources, Amtrak could greatly improve the availability and
reliability of its conventional equipment.



RECOMMENDATIONS
To improve conventional fleet performance to an appropriate level, we recommend that
the Vice President, Operations:

(1) Develop goals for improving the performance of Amtrak’s conventional fleets that
    support Amtrak’s strategic plan; provide direction, support, and resources to
    achieve those goals; and hold the Chief Mechanical Officer (CMO) accountable for
    meeting those goals.
(2) In addressing these goals, the VP for Operations and the CMO should establish and
    implement an agreed-upon plan for improving the performance of the conventional
    fleets that includes
                                                                                           21
                                Amtrak Office of Inspector General
                      Mechanical Maintenance: Improved Practices Have
           Significantly Enhanced Acela Equipment Performance and Could Benefit
                           Performance of Equipment Company-wide
                            Report No. OIG-E-2012-008, May 21, 2012

   (a) completing implementation of RCM, including
      i.     creating Acela-like reliability-improvement teams, focused solely on
             reliability, for each major fleet of conventional equipment;
      ii.    taking actions to improve the quality and quantity of failure data available to
             these teams; and
      iii. increasing the use of root-cause analysis for studying failures and serious
           problems with conventional fleet reliability;
   (b) establishing clear and specific accountability and responsibility for fleet
       performance;
   (c) determining the appropriate level of management and technical support needed
       to achieve the equipment performance goals;
   (d) developing and implementing a comprehensive training program that ensures
       that employees maintaining the conventional fleets possess the knowledge, skills,
       and abilities needed to adequately perform their jobs;
   (e) developing and implementing a financial incentive program for employees
       maintaining the conventional fleets, if it is determined that the costs are worth
       the expected benefits; and
   (f) developing and implementing a plan to fully address the open recommendations
       from our previous report (see Appendix II).



MANAGEMENT COMMENTS AND OIG ANALYSIS
In commenting on a draft of this report, the Acting Vice President for Operations agreed
with our recommendations. He highlighted the progress that the Mechanical
Department has made since our earlier report (Mechanical Maintenance Operations, E-05-
04, September 6, 2005), and also acknowledged that opportunities exist for further
progress, particularly in applying the lessons learned from Acela maintenance practices
to the conventional fleet.
                                                                                       22
                             Amtrak Office of Inspector General
                   Mechanical Maintenance: Improved Practices Have
        Significantly Enhanced Acela Equipment Performance and Could Benefit
                        Performance of Equipment Company-wide
                         Report No. OIG-E-2012-008, May 21, 2012

The response discussed detailed actions being planned to address our
recommendations, including action plans to address the open recommendations from
our previous report. The Acting Vice President for Operations also committed to
providing quarterly updates on the progress being made. We consider these actions
responsive to our recommendations.

Amtrak’s letter commenting on the draft report is reprinted as Appendix III.

                                         -----

Thank you for your cooperation during the course of this evaluation. If you have any
questions, please contact me at calvin.evans@amtrakoig.gov or 202.906.4507.



cc:   Joseph H. Boardman, President & CEO
      Mario Bergeron, Chief Mechanical Officer
      Jessica Scritchfield, Senior Director, Internal Controls/Audit
                                                                                          23
                             Amtrak Office of Inspector General
                   Mechanical Maintenance: Improved Practices Have
        Significantly Enhanced Acela Equipment Performance and Could Benefit
                        Performance of Equipment Company-wide
                         Report No. OIG-E-2012-008, May 21, 2012

                                       Appendix I

                       SCOPE AND METHODOLOGY

This report discusses our follow-up evaluation of the progress Amtrak has made in
implementing the recommendations contained in an earlier OIG report. In late 2004,
Amtrak OIG conducted a broad, system-wide evaluation of Amtrak’s mechanical
maintenance program, which resulted in the issuance of Report E-05-04, Amtrak
Mechanical Maintenance Operations, on September 6, 2005. This report contained 34
recommendations, all of which were subsequently agreed to by Amtrak management.

The objective of our follow-up evaluation was to assess Amtrak’s progress in
implementing these recommendations, and to identify opportunities for continued
improvement. To address our objectives, we began by conducting a detailed review of
the 34 recommendations in the previous evaluation report, E-05-04, and the
corresponding Amtrak management response. With this background, we then held a
preliminary meeting with the Chief Mechanical Officer (CMO) to identify other areas of
possible focus or special interest. Using these as a guide, we then conducted on-site
visits, over a 4–month period, to all major Amtrak mechanical facilities nationwide,
interviewing responsible local managers, reviewing documentation, inspecting each
facility, taking photographs, and gathering data. In addition, we conducted extensive
interviews with all of the Deputy CMOs, five of the Master Mechanics, and selected
senior Mechanical Department support staff. We compared these latest observations
with our previous recommendations and the Amtrak management response, and used
that comparison to identify both areas of progress—much of it substantial—and
remaining challenges and opportunities. Finally, to assess the validity of our
conclusions, we met with senior Mechanical Department management and provided
them with an opportunity to review the results and provide feedback.

Our work was performed in accordance with government Quality Standards for
Inspection and Evaluation and our statutory responsibilities contained in the Inspector
General Act of 1978, as amended.
                                                                                                     24
                            Amtrak Office of Inspector General
                  Mechanical Maintenance: Improved Practices Have
       Significantly Enhanced Acela Equipment Performance and Could Benefit
                       Performance of Equipment Company-wide
                        Report No. OIG-E-2012-008, May 21, 2012

                                         Appendix II

              STATUS OF PRIOR RECOMMENDATIONS
               Numbered                         Amtrak Management               OIG Staff
Report Area    Recommendation                   Response                        Observation
Maintenance    1A. That the Chief               Agree. Amtrak's Work            Some progress. P-42
Content and    Mechanical Officer (CMO)         Management System               traction motors, wheels,
Frequency      develop and implement a          (WMS) (Spear                    and major Acela
               process that records usage       Technologies) has a fully       components are being
               data (miles, hours, etc.) on     functioning module that         tracked by serial number
               all major serialized             supports component              in WMS, but the rest of
               components, including (but       serialization and gathering     the recommended
               not limited to) traction         of asset-related metrics.       components are still not
               motors, wheel sets, air          The Mechanical                  being tracked.
               compressors, and brake           Department has
               valves, so that a database       developed an interface
               can be created to use in         with the wheel shop
               scheduling maintenance and       production database that
               analyzing failure                will allow WMS to
               characteristics                  automatically read the
                                                "born on" data and create
                                                the asset record,
                                                nameplate, and assign
                                                serialization. This process
                                                has been in the
                                                development phase for
                                                some time and final
                                                testing is being
                                                completed. This interface
                                                will go live during the first
                                                quarter of calendar year
                                                2006. (Abbreviated)
               1B. That the CMO conduct a       Agree. The CMO will             Complete.
               systematic review of all         conduct a systematic
               scheduled maintenance            review of all scheduled
               activities to ensure that the    maintenance activities to
               activities are appropriate and   ensure that they are
               justified by the best            appropriate and justified.
               information currently            In order to accomplish this
               available (manufacturer’s        review, the CMO would
               recommendations, industry        enlist the services of a
               studies, documented              qualified consulting firm to
               experience, etc.).               validate the ongoing
                                                practices or to
                                                recommend the required
                                                changes utilizing the best
                                                information currently
                                                available, as well as
                                                provide an evaluation of
                                                                                                25
                            Amtrak Office of Inspector General
                  Mechanical Maintenance: Improved Practices Have
       Significantly Enhanced Acela Equipment Performance and Could Benefit
                       Performance of Equipment Company-wide
                        Report No. OIG-E-2012-008, May 21, 2012

              Numbered                      Amtrak Management              OIG Staff
Report Area   Recommendation                Response                       Observation
                                            the existing fleet
                                            conditions. This effort will
                                            be completed within the
                                            next 8 to 10 months and
                                            result in a comprehensive
                                            fleet review and
                                            recommendation for
                                            improvements.
              1C. That the CMO, in          Agree. The CMO, in             Complete. Refresher
              coordination with Human       conjunction with the           training may be needed.
              Resources, develop a          Human Resources
              training program to educate   Department, will enlist the
              key personnel in the          services of a qualified
              Mechanical Department on      consulting firm to educate
              reliability-centered          key Mechanical personnel
              maintenance (RCM) and         on RCM and other
              other modern maintenance      modern maintenance
              management techniques.        management techniques.
                                            A brief introduction to
                                            RCM concepts as well as
                                            some modern
                                            maintenance
                                            management techniques
                                            has been incorporated
                                            into the Mechanical
                                            Managers "Leadership in
                                            Action" workshop that is
                                            currently underway for
                                            approximately 160
                                            Mechanical Department
                                            managers. This group
                                            represents the
                                            preponderance of
                                            Mechanical Department
                                            Operations personnel. As
                                            a follow-up to this
                                            program, plans are
                                            underway to provide a
                                            more detailed review of
                                            RCM philosophy with the
                                            CMO's direct reports in
                                            calendar year 2006.
                                            Further training will be
                                            evaluated as data and
                                            systems are brought
                                            online to support RCM
                                            analysis.
                                                                                                   26
                            Amtrak Office of Inspector General
                  Mechanical Maintenance: Improved Practices Have
       Significantly Enhanced Acela Equipment Performance and Could Benefit
                       Performance of Equipment Company-wide
                        Report No. OIG-E-2012-008, May 21, 2012

              Numbered                       Amtrak Management              OIG Staff
Report Area   Recommendation                 Response                       Observation
              1D. That the CMO develop       Agree. The CMO will            Some progress. A
              and implement a process        develop and implement a        process has been set up
              that continually reviews       process to continually         to update the toolbox
              scheduled maintenance          review the content and         reference guides on a
              content and frequency to       frequency of the               recurring basis based on
              ensure that it is being        scheduled maintenance          feedback from the field.
              performed optimally in         programs to ensure that        However, there are still
              accordance with the RCM        the RCM philosophy is          no structured programs
              philosophy.                    utilized optimally. To         to update the
                                             begin this process, the        maintenance procedures
                                             CMO will begin to develop      for each fleet based on a
                                             senior management              review of the scheduled
                                             through an educational         maintenance content
                                             approach to the RCM            and frequency to ensure
                                             philosophy.                    that it is being performed
                                             Implementation is              optimally in accordance
                                             targeted to begin in the       with RCM philosophy.
                                             latter part of calendar year
                                             2006.
              1E. That the CMO               Agree. The CMO has             Complete.
              investigate the costs and      initiated a project that is
              benefits associated with       investigating the costs
              outsourcing part of the        and benefits associated
              maintenance operation to an    with outsourcing part of
              experienced maintenance        the maintenance
              provider who is already        operation to an
              employing RCM, as a means      experienced maintenance
              to quickly gain the benefits   provider who is already
              associated with RCM and        employing RCM, as a
              also gain first-hand           means to quickly gain the
              experience with the            benefits associated with
              techniques.                    RCM and also gain first-
                                             hand experience with the
                                             techniques. This review is
                                             being undertaken with the
                                             assistance of an
                                             experienced consultant in
                                             the field of diesel
                                             locomotive contract
                                             maintenance. The
                                             Mechanical Department is
                                             acting on identified
                                             opportunities from the
                                             consultant's initial
                                             assessment dated June
                                             2005 relating to the
                                             maintenance of the diesel
                                             locomotive fleet. The next
                                             phase will include issuing
                                                                                                      27
                            Amtrak Office of Inspector General
                  Mechanical Maintenance: Improved Practices Have
       Significantly Enhanced Acela Equipment Performance and Could Benefit
                       Performance of Equipment Company-wide
                        Report No. OIG-E-2012-008, May 21, 2012

              Numbered                         Amtrak Management              OIG Staff
Report Area   Recommendation                   Response                       Observation
                                               a request for quote, and
                                               based on the responses,
                                               the CMO will provide
                                               strategic
                                               recommendations by the
                                               third quarter of calendar
                                               year 2006.
              1F. That the CMO petition        Agree. The corporation         Complete. The
              the Federal Railroad             has, in the past,              Mechanical Department
              Administration (FRA) to allow    successfully petitioned        requested and FRA
              the use of different             FRA to change the legal        approved extending the
              maintenance intervals than       requirements as specified      Acela clean, oil, test, and
              the ones specified in 49 CFR     in the CFR. We will            stencil (COT&S) cycles
              Parts 229 and 238 for those      continue to evaluate and       from 5 to 10 years. The
              components where historical      identify opportunities to      HHP-8 locomotive
              data are available and a         petition for changes in the    approval is currently at 7
              justified case can be made       legal requirements. As the     years, with a plan to go
              to support the change.           Mechanical Department          to 10. Although we are
                                               implements an RCM              considering the
                                               program and has the data       recommendation
                                               to support and perform         complete, other
                                               predictive failure analysis,   opportunities that may
                                               we will be able to identify    be worth exploring
                                               additional potential           appear to be available to
                                               changes to the current         increase maintenance
                                               legal requirements.            intervals.
              1G. That the CMO review his      Agree. The CMO will            Complete.
              organizational structure and     review the organizational
              modify it as appropriate to      structure of the
              support an RCM operation.        Mechanical Department
              This should include creating     and modify it as
              and filling key analytical and   appropriate to support an
              other important management       RCM environment. The
              positions with technically       review will take place in
              educated, experienced, and       conjunction with the RCM
              knowledgeable personnel          training that is required to
              from external sources to help    better understand how to
              speed the transition to an       align the organization to
              RCM operation.                   operate under the RCM
                                               philosophy.
                                                                                                        28
                            Amtrak Office of Inspector General
                  Mechanical Maintenance: Improved Practices Have
       Significantly Enhanced Acela Equipment Performance and Could Benefit
                       Performance of Equipment Company-wide
                        Report No. OIG-E-2012-008, May 21, 2012

                 Numbered                          Amtrak Management              OIG Staff
Report Area      Recommendation                    Response                       Observation
Heavy Overhaul   2A. That the CMO                  Agree. In the future, the      Complete.
Program          immediately change the            Mechanical Department
                 content and frequency of the      will work more closely
                 P42 heavy overhaul program        with the Transportation
                 to more closely align with the    department to optimize
                 manufacturer’s                    the right mix of mileage
                 recommendations and               (i.e., service where units
                 industry practice.                run) to generate the best
                                                   possible overhaul
                                                   schedule. With the
                                                   change of frequency from
                                                   5 to 6 years, some of the
                                                   overhaul and other
                                                   planned work will be
                                                   moved to the field. The 5-
                                                   year electronic air brake
                                                   COT&S, dryers, nozzle
                                                   change-out, and interior
                                                   cab work will be
                                                   performed during the
                                                   annual preventive
                                                   maintenance inspection in
                                                   the field. (Abbreviated)
                 2B. That the CMO conduct a        Agree. The CMO will            Limited progress.
                 systematic review of the          conduct a systematic           Considerable effort has
                 content and frequency of all      review of all heavy            been expended on
                 heavy overhauls to ensure         overhaul activities to         documenting the current
                 that the activities included in   ensure that the activities     overhaul content and
                 the overhauls are                 are appropriate and            procedures. In addition,
                 appropriate and justified by      justified. In order to         much work has been
                 the best information currently    accomplish this review,        done on the diesel
                 available (manufacturer’s         the CMO will enlist the        locomotive fleet in
                 recommendations, industry         services of a qualified        implementing life-cycle
                 studies, documented               consulting firm to review      preventive maintenance
                 experience, etc.).                current scope and              (LCPM). However, there
                                                   frequency and                  is no current ongoing
                                                   recommend changes              effort to conduct the
                                                   utilizing the best             systematic review that
                                                   information available as       was recommended for
                                                   well as provide an             the rest of the fleets.
                                                   evaluation of existing fleet
                                                   conditions. This
                                                   evaluation process will be
                                                   initiated within 90 days.
                                                                                                        29
                            Amtrak Office of Inspector General
                  Mechanical Maintenance: Improved Practices Have
       Significantly Enhanced Acela Equipment Performance and Could Benefit
                       Performance of Equipment Company-wide
                        Report No. OIG-E-2012-008, May 21, 2012

               Numbered                         Amtrak Management               OIG Staff
Report Area    Recommendation                   Response                        Observation
               2C. That the CMO review the      Agree. The CMO will             Limited progress.
               cost-effectiveness of            review the cost-                Beyond the life-cycle
               continuing to perform heavy      effectiveness of                preventive maintenance
               overhauls and                    continuing to perform           work with the diesel
               remanufactures in the            heavy overhauls and             locomotives, there is no
               current manner in lieu of        remanufactures in the           current activity to review
               programming maintenance          current manner. The CMO         the cost-effectiveness of
               on a pure condition- or          will utilize the consultants’   continuing to perform
               usage-based cycle as part of     report as identified in         heavy overhauls and
               normal scheduled                 Recommendation 1B to            remanufacturers in the
               maintenance.                     perform the analysis.           current manner.

Work           3A. That the CMO                 Agree. The Mechanical           Complete.
Management     immediately mandate the          Department supports the
System (WMS)   use of WMS at all                full usage of WMS to track
               maintenance locations (that      and manage all aspects of
               currently have the capability)   the maintenance program.
               to start the capture of          The department is
               equipment and cost data that     aggressively driving the
               are not currently being          full implementation of the
               captured.                        manual payroll process
                                                while final testing of the
                                                SAP interface is
                                                completed. A second
                                                major initiative is
                                                underway to automate the
                                                requisitioning of repair
                                                parts and materials. This
                                                work will build on the
                                                interface already in place
                                                that provides catalog
                                                information and balance-
                                                on-hand data. These two
                                                initiatives, when
                                                completed and fully
                                                implemented, will capture
                                                all labor and inventory
                                                materials usage and
                                                associate them with work
                                                orders and tasks in WMS.
                                                Field survey work is
                                                underway to identify all
                                                network infrastructure
                                                requirements to fully
                                                support this effort.
                                                (Abbreviated)
                                                                                                     30
                            Amtrak Office of Inspector General
                  Mechanical Maintenance: Improved Practices Have
       Significantly Enhanced Acela Equipment Performance and Could Benefit
                       Performance of Equipment Company-wide
                        Report No. OIG-E-2012-008, May 21, 2012

              Numbered                           Amtrak Management               OIG Staff
Report Area   Recommendation                     Response                        Observation
              3B. That the CMO conduct a         Agree. The CMO, along           Complete.
              comprehensive assessment           with the software
              of the equipment and cost          manufacturer, Spear
              data required to effectively       Technologies, will conduct
              manage a corporate-wide            a comprehensive
              RCM operation.                     assessment of the
                                                 existing cost data and
                                                 system implementation to
                                                 determine additional
                                                 actions to fully implement
                                                 and support a Mechanical
                                                 RCM strategy.
              3C. That the CMO, in               Agree. The CMO will             Substantial progress.
              coordination with Amtrak           coordinate an assessment        Assessment is complete.
              Technologies (AT), conduct         of the capabilities of the      Replacement of WMS
              a review of the current            Spear3i software to             with MAXIMO asset
              capabilities of WMS to             support the needs of a          management software
              assess if it will satisfy the      reliability-centered            has been proposed as
              needs of an RCM operation.         maintenance program.            part of Strategic Asset
              If not, modify, supplement, or     Most CMMS and EAS               Management Phase 2
              replace WMS with a                 systems have basic              implementation.
              Computerized Maintenance           analytical tools built into
              Management System                  them but are primarily
              (CMMS) that can satisfy the        designed to feed data into
              needs of an RCM operation.         an external tool to
                                                 conduct more in-depth
                                                 analysis. (Abbreviated)
              3D. That the CMO, with             Agree. The CMO is               Complete.
              support from AT and Human          developing a
              Resources, develop and             comprehensive action
              execute a plan to complete         plan for full
              implementation of WMS (or          Implementation of Spear
              another CMMS) at all               3i. Meetings with various
              maintenance locations. The         groups within AT and
              plan should include a              Mechanical senior
              timeline containing all critical   management are being
              activities; an assessment of       conducted to educate the
              infrastructure and hardware        supporting departments
              requirements at all locations;     on the need and criticality
              and a comprehensive                of this effort. Senior- level
              training plan that includes        meetings are taking place
              training for new users,            to develop the strategy
              refresher training for existing    and timing of significant
              users, and training for senior     milestones. A full and
              managers on the capabilities       comprehensive schedule
              of the system                      will be finalized over the
                                                 2nd quarter of calendar
                                                 year 2006 and will include
                                                                                                   31
                            Amtrak Office of Inspector General
                  Mechanical Maintenance: Improved Practices Have
       Significantly Enhanced Acela Equipment Performance and Could Benefit
                       Performance of Equipment Company-wide
                        Report No. OIG-E-2012-008, May 21, 2012

              Numbered                         Amtrak Management              OIG Staff
Report Area   Recommendation                   Response                       Observation
                                               key milestones.
                                               (Abbreviated)
              3E. That the CMO establish       Agree. The CMO has             Some progress. A
              a WMS steering committee         established a WMS              WMS Steering
              for the Mechanical               Steering Committee that        Committee was created
              Department, consisting of        includes the following         but it has not been
              the master mechanics and         positions:                     meeting regularly to
              facility superintendents, to                                    actively guide the
              review, on a yearly basis, the   Chief Mechanical Officer       expansion and upgrade
              direction of WMS                                                of the system. However,
                                               Deputy Chief Mechanical
              implementation and identify                                     there are plans to
              the needs for expansion or       Officer                        reinvigorate this
              upgrade of the system.           Senior Director, Planning,     committee.
                                               Logistics, and Budgeting
                                               Senior Director,
                                               Equipment Engineering
                                               Senior Director,
                                               Standards and
                                               Compliance
                                               Rotating Seat, General
                                               Manager, Shops
                                               Rotating Seat, Master
                                               Mechanic, Division

                                               The purpose and role of
                                               the Steering Committee is
                                               to set overall direction and
                                               leadership, and provide
                                               support and resources to
                                               successfully implement
                                               Spear 31. Future
                                               expansion, significant
                                               enhancements, and
                                               upgrades will be
                                               addressed by this
                                               committee. The CMO will
                                               also establish a user
                                               committee focused on
                                               implementing key user
                                               functionality and ensuring
                                               high levels of compliance
                                               throughout the user
                                               community. It will serve as
                                               the bridge among the
                                               facilities/shops, the
                                               system, and senior
                                                                                                   32
                            Amtrak Office of Inspector General
                  Mechanical Maintenance: Improved Practices Have
       Significantly Enhanced Acela Equipment Performance and Could Benefit
                       Performance of Equipment Company-wide
                        Report No. OIG-E-2012-008, May 21, 2012

              Numbered                         Amtrak Management             OIG Staff
Report Area   Recommendation                   Response                      Observation
                                               management to ensure
                                               consistency of purpose
                                               and clear understanding
                                               of the use and
                                               functionality of the
                                               system. This group will
                                               meet quarterly, with this
                                               frequency being reviewed
                                               as functionality is
                                               implemented. This
                                               committee will comprise
                                               master mechanics,
                                               superintendents, assistant
                                               superintendents,
                                               managers, and a general
                                               foreman. The group will
                                               initially meet quarterly.
                                               The exact makeup of the
                                               group will be determined
                                               over the next quarter.


Quality       4A. That the CMO develop a       Agree. A corporate-wide       Substantially complete.
Management    comprehensive corporate-         QM program that includes      A corporate-wide QM
              wide quality management          document control,             program has been
              (QM) program that, at            material oversight,           developed; however,
              minimum, evaluates the           uniform procedures, and       there is evidence that it
              conduct of PM to ensure that     appropriate measurement       does not adequately
              it is being done correctly and   tools will address the lack   "evaluate the conduct of
              consistently throughout the      of uniform consistency        PM to ensure it is being
              organization, evaluates the      cited in the DIG report.      done correctly and
              conduct of PM to ensure that     The CMO and the               consistently throughout
              the time scheduled for PM is     management team, over         the organization." This
              appropriate to accomplish a      the next 6-8 months, will     was the first, key
              given scope of work,             identify those elements of    element of the initial
              evaluates and reports on the     fleet maintenance that        recommendation and
              condition of the fleet by        align with an RCM-based       should be addressed.
              car/locomotive type to be        strategy and develop a
              used in prioritizing work or     plan that defines how the
              capital expenditures,            major elements
              evaluates the root cause of      referenced above will be
              equipment failures to            administered consistently
              address systemic issues and      in all Amtrak facilities.
              modify procedures, and           External resources will be
              evaluates the quality of the     identified as needed to
              WMS data on a recurring          ensure that Amtrak is
              basis to ensure that it is       adopting best practices.
              accurate and dependable.
                                                                                           33
                            Amtrak Office of Inspector General
                  Mechanical Maintenance: Improved Practices Have
       Significantly Enhanced Acela Equipment Performance and Could Benefit
                       Performance of Equipment Company-wide
                        Report No. OIG-E-2012-008, May 21, 2012

              Numbered                        Amtrak Management              OIG Staff
Report Area   Recommendation                  Response                       Observation
              4B. That the CMO hire           Agree. The CMO is              Complete.
              additional experienced and      always seeking to
              trained personnel to            improve the quality of the
              implement the                   organization. Concurrent
              comprehensive QM program.       with identification of the
                                              framework for the QM
                                              program, an analysis of
                                              departmental resources
                                              will be undertaken to
                                              determine if the proper
                                              experience and expertise
                                              is available to ensure
                                              successful
                                              implementation.
                                              After review, the CMO will
                                              make recommendations
                                              for organizational
                                              changes consistent with
                                              the resources required to
                                              implement a
                                              comprehensive QM
                                              program.

Performance   5A. That the CMO take           Agree. The CMO has             Complete.
Metrics       immediate action to select      initiated a review of
              and implement a set of          current metrics and
              performance metrics to use      suggested metrics
              to monitor the status of the    included in the report that
              mechanical fleet and to help    will effectively monitor the
              in resource allocation and      status of the fleet and
              decision-making. The set of     drive improvement and
              metrics should include, at      change. Further, the CMO
              minimum, metrics in the         will review the data that
              following areas: Reliability:   are currently collected in
              Mean time between failures      Spear 3i to prioritize an
              for each type of                implementation schedule.
              locomotive/car, mean miles      The CMO will further
              between failures for each       examine industry best
              type of locomotive/car, mean    practices to develop a
              time between shoppings for      comprehensive reporting
              each type of locomotive/car,    strategy. This review will
              mean miles between              include examining each
              shoppings for each type of      suggested metric as well
              locomotive/car, minutes of      as any others that are
              delay to revenue service due    generally accepted in the
              to equipment failures.          transportation—and
              Availability: Locomotives by    specifically, the
              type available for service      passenger rail—industry.
                                                                                       34
                            Amtrak Office of Inspector General
                  Mechanical Maintenance: Improved Practices Have
       Significantly Enhanced Acela Equipment Performance and Could Benefit
                       Performance of Equipment Company-wide
                        Report No. OIG-E-2012-008, May 21, 2012

              Numbered                       Amtrak Management           OIG Staff
Report Area   Recommendation                 Response                    Observation
              divided by total number of     Some of the metrics
              active locomotives by type,    suggested include costs
              cars by type available for     outside the Mechanical
              service divided by total       Department and may be
              number of active cars by       part of a more
              type. Condition: Equipment     comprehensive financial
              condition index (based on an   metric. Mechanical will
              independent evaluation of      provide data available to
              equipment serviceability and   other departments as
              cleanliness), number of        needed to support fully
              customer complaints about      allocated cost analysis.
              condition of equipment over    The implementation
              a given period. Cost: Fully    timeline will be
              allocated maintenance cost     determined by data
              per year for each locomotive   availability and system
              type, fully allocated          technical requirements,
              maintenance cost per mile      and will be formalized
              for each locomotive type,      during the second quarter
              fully allocated maintenance    of calendar year 2006.
              cost per year for each car
              type, fully allocated
              maintenance cost per mile
              for each car type. State of
              Good Repair (SOGR):
              Number of locomotives by
              type in “State of Good
              Repair” divided by total
              number of active
              locomotives by type, number
              of cars by type in “State of
              Good Repair” divided by
              total number of active cars
              by type.
                                                                                         35
                            Amtrak Office of Inspector General
                  Mechanical Maintenance: Improved Practices Have
       Significantly Enhanced Acela Equipment Performance and Could Benefit
                       Performance of Equipment Company-wide
                        Report No. OIG-E-2012-008, May 21, 2012

              Numbered                     Amtrak Management               OIG Staff
Report Area   Recommendation               Response                        Observation
              5B. That the CMO routinely   Agree. The CMO                  Complete.
              track the metrics, analyze   publishes the current
              trends, and publicize the    metrics and will continue
              results to both senior       to publish results against
              management and the           any modified or new set of
              Mechanical Department        measures. Current
              workforce.                   metrics are published and
                                           reviewed monthly with the
                                           Senior VP–Operations.
                                           They are also the topic of
                                           weekly and daily calls with
                                           respect to fleet availability
                                           and shop counts. To
                                           increase the visibility of
                                           the need for change and
                                           to support the concepts
                                           introduced during the
                                           department's ongoing
                                           Leadership in Action
                                           classes, the CMO will
                                           place "Production and
                                           Performance" boards in
                                           each facility as a way to
                                           take the message of
                                           improvement and change
                                           to all Mechanical facilities.
                                           The Department is fast-
                                           tracking the
                                           implementation of the
                                           Engineering-style
                                           dashboard.
                                                                                           36
                            Amtrak Office of Inspector General
                  Mechanical Maintenance: Improved Practices Have
       Significantly Enhanced Acela Equipment Performance and Could Benefit
                       Performance of Equipment Company-wide
                        Report No. OIG-E-2012-008, May 21, 2012

              Numbered                       Amtrak Management               OIG Staff
Report Area   Recommendation                 Response                        Observation
              5C. That the CMO develop       Agree. The CMO                  Complete.
              appropriate action plans       currently reacts to and
              based on the analysis of the   implements changes
              metrics.                       when there is any
                                             variance to the planned
                                             results. This will continue
                                             as metrics and measures
                                             are reviewed and
                                             changes are adopted and
                                             implemented. The
                                             department is looking at a
                                             number of metrics and
                                             measures that will
                                             enhance the transparency
                                             of the effectiveness of the
                                             maintenance programs.
                                             Metrics are only useful to
                                             the extent that they inform
                                             management about a
                                             variance to a goal or
                                             objective and facilitate
                                             intervention to improve
                                             performance. The CMO is
                                             developing an operational
                                             dashboard that will be
                                             available with the next
                                             release of Spear 3i. This
                                             will facilitate the reporting
                                             of many of the metrics
                                             with a direct link into the
                                             database. As an interim
                                             measure the department
                                             is moving ahead to
                                             implement the
                                             Engineering-style
                                             dashboard, which will give
                                             the Department metrics
                                             on financial results,
                                             overtime, safety, and
                                             project completion status.
                                             All these metrics are
                                             currently managed
                                             through reports but the
                                             dashboard will allow for
                                             departmental distribution
                                             in a forum that is easier to
                                             view and will improve
                                             accountability throughout
                                             the organization.
                                                                                                   37
                             Amtrak Office of Inspector General
                   Mechanical Maintenance: Improved Practices Have
        Significantly Enhanced Acela Equipment Performance and Could Benefit
                        Performance of Equipment Company-wide
                         Report No. OIG-E-2012-008, May 21, 2012

                 Numbered                         Amtrak Management            OIG Staff
Report Area      Recommendation                   Response                     Observation
                 5D. That the Chief Operating     Refer to discussion          Complete.
                 Officer define SOGR for the      above. The Mechanical
                 mechanical fleet in              Department will fully
                 measurable terms.                support a corporate-wide
                                                  definition of SOGR.

Fleet Planning   6A. That the Vice President      Agree. The CMO will          Closed. Tracked under
                 for Planning and Analysis        provide any requested        OIG Evaluation Report
                 develop, and keep current, a     data that are available to   E-06-02.
                 comprehensive fleet plan         support the Vice
                 (that includes both              President for Planning
                 locomotives and cars) to be      and Analysis in
                 used to forecast and             completing this task.
                 prioritize mechanical capital
                 expenditures. The
                 equipment requirements in
                 the fleet plan should be
                 based on realistic shop
                 projections and a rational
                 business case analysis of
                 the incremental costs and
                 benefits for the equipment
                 allocated to every train.
                 6B. That the CMO develop         Agree. The capital budget    Complete.
                 the mechanical capital           process as of now takes
                 budget to support the            into account current
                 requirements in the fleet        requirements and
                 plan.                            prioritizes overhauls
                                                  based on condition, time
                                                  from previous overhaul,
                                                  mileage, and regulatory
                                                  requirements.
                 6C. That the CMO identify        Agree. The first step in     Complete.
                 equipment that is considered     identifying excess
                 excess to requirements and       equipment is to complete
                 store the equipment at a         a multi-year
                 secure location in a manner      comprehensive fleet plan
                 that will prevent                for all cars and
                 deterioration, to the greatest   locomotives. This plan
                 extent possible, until it is     must be a coordinated
                 potentially needed in the        effort among various
                 future.                          departments, including
                                                  Operations, Strategic
                                                  Planning, Transportation,
                                                  Marketing, and
                                                  Mechanical. Monthly
                                                  meetings are taking place
                                                  to ensure input from these
                                                                                                       38
                              Amtrak Office of Inspector General
                    Mechanical Maintenance: Improved Practices Have
         Significantly Enhanced Acela Equipment Performance and Could Benefit
                         Performance of Equipment Company-wide
                          Report No. OIG-E-2012-008, May 21, 2012

                Numbered                         Amtrak Management             OIG Staff
Report Area     Recommendation                   Response                      Observation
                                                 departments. Once
                                                 completed, periodic
                                                 reviews must take place
                                                 to adjust the fleets to the
                                                 right size. Upon
                                                 completion of this plan,
                                                 the CMO will continue to
                                                 take the steps necessary
                                                 to store equipment
                                                 identified as excess.
                                                 (Abbreviated)

Material        7A. That the Vice President      Agree. The CMO will           Complete. Amtrak has
Availability    for Procurement and              coordinate with the Vice      considerably expanded
                Materials Management, in         President for Procurement     the use of vending
                coordination with the CMO        and Materials                 machine-type containers
                and the AT Department,           Management to utilize         at Amtrak maintenance
                expand the usage of vending      new technology to             facilities. However, we
                machine-type containers (or      improve material              noted that the actual use
                other new technology that        availability and access in    of the machines varies
                allows parts and supplies to     the most efficient manner.    widely. Some locations
                be maintained closer to the                                    manage the machines
                work locations), to all Amtrak                                 very well with a regular
                maintenance facilities.                                        process to adjust the
                                                                               items that are carried in
                                                                               order to maximize their
                                                                               use. Other locations
                                                                               have simply filled the
                                                                               machines with personal
                                                                               protective equipment
                                                                               and no effort is made to
                                                                               adjust the content based
                                                                               on actual material
                                                                               consumption. Although
                                                                               we are considering this
                                                                               recommendation
                                                                               complete, the processes
                                                                               of the well-managed
                                                                               locations, such as
                                                                               Albany and Brighton
                                                                               Park, should be copied
                                                                               throughout the system to
                                                                               ensure maximum
                                                                               efficiency and utilization.
                                                                                               39
                              Amtrak Office of Inspector General
                    Mechanical Maintenance: Improved Practices Have
         Significantly Enhanced Acela Equipment Performance and Could Benefit
                         Performance of Equipment Company-wide
                          Report No. OIG-E-2012-008, May 21, 2012

                   Numbered                        Amtrak Management             OIG Staff
Report Area        Recommendation                  Response                      Observation
                   7B. That the CMO keep the       Agree. The CMO and the        Complete.
                   Vice President for              Vice President for
                   Procurement and Materials       Procurement and
                   Management continually          Materials Management
                   informed of changes planned     have continually worked
                   in the mechanical               together to develop the
                   maintenance operation.          communication links
                                                   throughout both
                                                   departments to ensure
                                                   that all changes planned
                                                   and unplanned are
                                                   discussed on a regular
                                                   basis, with monthly
                                                   meetings that ensure
                                                   continuity.
                   7C. That the Vice President     Refer to response from        Complete.
                   for Procurement and             VP, Procurement and
                   Materials Management            Materials Management.
                   continually reassess material
                   requirements, inventory
                   levels, warehouse
                   requirements, and material
                   control manning levels
                   based on changes planned
                   in the mechanical
                   maintenance operations.

Facility           8A. That the CMO conduct a      Agree. The CMO, in            Complete.
Rationalization/   study of the condition,         conjunction with the Office
Consolidation      capacity, capabilities, and     of Inspector General
                   costs of each mechanical        (OIG), has already set this
                   maintenance location to         process in motion. The
                   evaluate the potential          consulting firm has been
                   benefits of consolidating       identified and dates have
                   maintenance operations into     been confirmed for site
                   fewer locations.                evaluations around the
                                                   country of the mechanical
                                                   facilities’ capacity and
                                                   rationalization. An overall
                                                   study of condition,
                                                   capabilities, and costs of
                                                   each mechanical
                                                   maintenance location will
                                                   be conducted as we
                                                   further define the impact
                                                   of RCM and identify what
                                                   capability and capacity
                                                   requirements will be
                                                                                         40
                            Amtrak Office of Inspector General
                  Mechanical Maintenance: Improved Practices Have
       Significantly Enhanced Acela Equipment Performance and Could Benefit
                       Performance of Equipment Company-wide
                        Report No. OIG-E-2012-008, May 21, 2012

              Numbered                          Amtrak Management          OIG Staff
Report Area   Recommendation                    Response                   Observation
                                                necessary to optimize
                                                utilization and apply
                                                consolidation and/or
                                                elimination of existing
                                                mechanical assets.
                                                (Abbreviated)
              8B. That the Vice President       The CMO will engage the    Complete.
              for Transportation support        VP, Transportation in
              the CMO’s study by                planning and
              providing analysis of the         implementing the shop
              potential additional costs for    rationalization project.
              routing equipment to
              different locations.
              8C. That the Chief Engineer       Refer to the response      Complete.
              support the CMO’s study by        from the Chief Engineer.
              providing cost estimates of
              any facility modifications that
              would be required to support
              consolidation.
              8D. That the Vice President       Refer to the response      Complete.
              for Procurement and               from the Vice President
              Materials Management              for Procurement and
              support the CMO’s study by        Materials Management.
              providing estimates of any
              savings in material
              management and storage
              costs associated with
              consolidating maintenance
              operations into fewer
              locations.
                                                                                                       41
                            Amtrak Office of Inspector General
                  Mechanical Maintenance: Improved Practices Have
       Significantly Enhanced Acela Equipment Performance and Could Benefit
                       Performance of Equipment Company-wide
                        Report No. OIG-E-2012-008, May 21, 2012

              Numbered                          Amtrak Management              OIG Staff
Report Area   Recommendation                    Response                       Observation
Maintenance   9A. That the CMO determine        Agree. The CMO's staff is      Complete. Although we
Cost Data     the level of detail required in   reviewing the current          are considering this
              the cost data to support          accounting structure and       complete, the current
              effective decision-making in      use of various data            process still does not
              an RCM operation                  elements to improve the        capture the accurate
                                                accuracy and reporting of      cost of repaired
                                                activities. The Spear 3i       components. This will be
                                                system will completely         necessary if Amtrak
                                                support an RCM                 attempts to insource
                                                philosophy. The Spear 3i       component repair work
                                                software is built around a     in the future or wants to
                                                robust database                judge the efficiency of its
                                                comprising unit history        current component repair
                                                and component                  operations.
                                                serialization coupled with
                                                defect history. This
                                                structure will provide the
                                                data to support an RCM
                                                system. The cost detail
                                                that is needed to enable
                                                the CMO to make
                                                predictive maintenance
                                                strategy decisions is at
                                                the unit and component
                                                level. The data must
                                                provide life-cycle
                                                information and support
                                                root-cause and failure-
                                                mode analysis. The
                                                process of collecting the
                                                traceable component
                                                costs, as outlined in
                                                Section 1, will be
                                                implemented in parallel
                                                with other efforts to
                                                integrate RCM into
                                                Amtrak's maintenance
                                                practices.
              9B. That the CMO                  Agree. The CMO's               Complete.
              coordinate with the Chief         Planning and Budgeting
              Financial Officer (CFO) and       staff is currently reviewing
              AT to modify the account          the accounting system
              structure in the current          structure and will propose
              financial system, if              changes to improve
              necessary, to provide the         transparency and
              detail required to better         reporting clarity. There is
              support the Mechanical            also significant
              maintenance operation.            development underway in
                                                WMS to implement
                                                                                       42
                            Amtrak Office of Inspector General
                  Mechanical Maintenance: Improved Practices Have
       Significantly Enhanced Acela Equipment Performance and Could Benefit
                       Performance of Equipment Company-wide
                        Report No. OIG-E-2012-008, May 21, 2012

              Numbered                     Amtrak Management             OIG Staff
Report Area   Recommendation               Response                      Observation
                                           automated electronic
                                           material requisitioning and
                                           job-level-specific coding.
              9C. That the CMO             Agree. The CMO's              Complete.
              coordinate with the CFO to   Planning and Budgeting
              ensure that the Mechanical   staff is currently working
              Department’s requirements    with the CFO's
              are included in the new      organization to provide
              financial system being       input on the department's
              designed and implemented     requirements in a new
              by the Finance Department.   system.
                                                                       43
                     Amtrak Office of Inspector General
           Mechanical Maintenance: Improved Practices Have
Significantly Enhanced Acela Equipment Performance and Could Benefit
                Performance of Equipment Company-wide
                 Report No. OIG-E-2012-008, May 21, 2012

                           Appendix III

            COMMENTS FROM THE
     ACTING VICE PRESIDENT, OPERATIONS
                                                                       44
                     Amtrak Office of Inspector General
           Mechanical Maintenance: Improved Practices Have
Significantly Enhanced Acela Equipment Performance and Could Benefit
                Performance of Equipment Company-wide
                 Report No. OIG-E-2012-008, May 21, 2012
                                                                       45
                     Amtrak Office of Inspector General
           Mechanical Maintenance: Improved Practices Have
Significantly Enhanced Acela Equipment Performance and Could Benefit
                Performance of Equipment Company-wide
                 Report No. OIG-E-2012-008, May 21, 2012
                                                                       46
                     Amtrak Office of Inspector General
           Mechanical Maintenance: Improved Practices Have
Significantly Enhanced Acela Equipment Performance and Could Benefit
                Performance of Equipment Company-wide
                 Report No. OIG-E-2012-008, May 21, 2012
                                                                       47
                     Amtrak Office of Inspector General
           Mechanical Maintenance: Improved Practices Have
Significantly Enhanced Acela Equipment Performance and Could Benefit
                Performance of Equipment Company-wide
                 Report No. OIG-E-2012-008, May 21, 2012
                                                                       48
                     Amtrak Office of Inspector General
           Mechanical Maintenance: Improved Practices Have
Significantly Enhanced Acela Equipment Performance and Could Benefit
                Performance of Equipment Company-wide
                 Report No. OIG-E-2012-008, May 21, 2012
                                                                       49
                     Amtrak Office of Inspector General
           Mechanical Maintenance: Improved Practices Have
Significantly Enhanced Acela Equipment Performance and Could Benefit
                Performance of Equipment Company-wide
                 Report No. OIG-E-2012-008, May 21, 2012
                                                                       50
                     Amtrak Office of Inspector General
           Mechanical Maintenance: Improved Practices Have
Significantly Enhanced Acela Equipment Performance and Could Benefit
                Performance of Equipment Company-wide
                 Report No. OIG-E-2012-008, May 21, 2012
                                                                       51
                     Amtrak Office of Inspector General
           Mechanical Maintenance: Improved Practices Have
Significantly Enhanced Acela Equipment Performance and Could Benefit
                Performance of Equipment Company-wide
                 Report No. OIG-E-2012-008, May 21, 2012
                                                                               52
                             Amtrak Office of Inspector General
                   Mechanical Maintenance: Improved Practices Have
        Significantly Enhanced Acela Equipment Performance and Could Benefit
                        Performance of Equipment Company-wide
                         Report No. OIG-E-2012-008, May 21, 2012

                                        Appendix IV

                                 ABBREVIATIONS

AT           Amtrak Technologies
CFO          Chief Financial Officer
CMMS         Computerized Maintenance Management System
CMO          Chief Mechanical Officer
COO          Chief Operating Officer
COT&S        clean, oil, test, and stencil
EOC          Acela Executive Oversight Committee
FRA          Federal Railroad Administration
FY           fiscal year
HHP          high horsepower
MDBF         mean distance between failures
NEC-MSC      Northeast Corridor Maintenance Service Company
OIG          Office of Inspector General
OTP          on-time performance
PM           preventive maintenance
PRIIA        Passenger Rail Investment and Improvement Act of 2008
QM           Quality Management
RCM          reliability-centered maintenance
SOGR         State of Good Repair
VP           Vice President
WMS          Work Management System
                                                                                    53
                             Amtrak Office of Inspector General
                   Mechanical Maintenance: Improved Practices Have
        Significantly Enhanced Acela Equipment Performance and Could Benefit
                        Performance of Equipment Company-wide
                         Report No. OIG-E-2012-008, May 21, 2012

                                       Appendix V

                            OIG TEAM MEMBERS

Calvin Evans, Assistant Inspector General, Inspections and Evaluations

George P. Binns, Senior Operations Analyst, Inspections and Evaluations

John (Skip) MacMichael, Principal Operations Analyst, Inspections and Evaluations

Garry A. Fuller, GF Rail, Consultant
                                                                                       54
                            Amtrak Office of Inspector General
                  Mechanical Maintenance: Improved Practices Have
       Significantly Enhanced Acela Equipment Performance and Could Benefit
                       Performance of Equipment Company-wide
                        Report No. OIG-E-2012-008, May 21, 2012

           OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission         Amtrak OIG’s mission is to
                                conduct and supervise independent and objective
                                audits, inspections, evaluations, and investigations
                                relating to Amtrak programs and operations;
                                promote economy, effectiveness, and efficiency within
                                Amtrak;
                                prevent and detect fraud, waste, and abuse in Amtrak's
                                programs and operations;
                                review security and safety policies and programs; and
                                review and make recommendations regarding existing
                                and proposed legislation and regulations relating to
                                Amtrak's programs and operations.

Obtaining Copies of OIG Available at our website: www.amtrakoig.gov.
Reports and Testimony

To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                             Web:      www.amtrakoig.gov/hotline
                             Phone:    800-468-5469

Congressional and            E. Bret Coulson, Senior Director
Public Affairs               Congressional and Public Affairs
                             Mail:     Amtrak OIG
                                       10 G Street, N.E., 3W-300
                                       Washington, DC 20002
                             Phone:    202-906-4134
                             Email:    bret.coulson@amtrakoig.gov
